<html>
<title> - FRONTLINE FEDS: SERVING THE PUBLIC DURING A PANDEMIC</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                            FRONTLINE FEDS:


                  SERVING THE PUBLIC DURING A PANDEMIC

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON GOVERNMENT OPERATIONS

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 25, 2020

                               __________

                           Serial No. 116-99

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
      
      


                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                             
                             
                             ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
40-843 PDF              WASHINGTON : 2020                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio, Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Jody B. Hice, Georgia
Raja Krishnamoorthi, Illinois        Glenn Grothman, Wisconsin
Jamie Raskin, Maryland               James Comer, Kentucky
Harley Rouda, California             Michael Cloud, Texas
Ro Khanna, California                Bob Gibbs, Ohio
Kweisi Mfume, Maryland               Clay Higgins, Louisiana
Debbie Wasserman Schultz, Florida    Ralph Norman, South Carolina
John P. Sarbanes, Maryland           Chip Roy, Texas
Peter Welch, Vermont                 Carol D. Miller, West Virginia
Jackie Speier, California            Mark E. Green, Tennessee
Robin L. Kelly, Illinois             Kelly Armstrong, North Dakota
Mark DeSaulnier, California          W. Gregory Steube, Florida
Brenda L. Lawrence, Michigan         Fred Keller, Pennsylvania
Stacey E. Plaskett, Virgin Islands
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California

                     David Rapallo, Staff Director
              Wendy Ginsberg, Subcommittee Staff Director
                          Amy Stratton, Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director
                                 ------                                

                 Subcommittee on Government Operations

                 Gerald E. Connolly, Virginia, Chairman
Eleanor Holmes Norton, District of   Jody B. Hice, Georgia Ranking 
    Columbia                             Minority Member
John P. Sarbanes, Maryland           Thomas Massie, Kentucky
Jackie Speier, California            Glenn Grothman, Wisconsin
Brenda L. Lawrence, Michigan         James Comer, Kentucky
Stacey E. Plaskett, Virgin Islands   Ralph Norman, South Carolina
Ro Khanna, California                W. Gregory Steube, Florida
Stephen F. Lynch, Massachsetts
Jamie Raskin, Maryland

                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on June 25, 2020....................................     1

                               Witnesses

Ms. Jacqueline Simon, National Policy Director, American 
  Federation of Government Employees
Oral Statement...................................................     6
Ms. Lorraine Martin, President and Chief Executive Officer, 
  National Safety Council
Oral Statement...................................................     8
Mr. J. Christopher Mihm, Managing Director for Strategic Issues, 
  Government Accountability Office
Oral Statement...................................................     9
The Honorable Jim DeMint, Chairman, Conservative Partnership 
  Institute
Oral Statement...................................................    11

Written opening statements and statements for the witnesses are 
  available on the U.S. House of Representatives Document 
  Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              

Documents entered into the record during this hearing and 
  Questions for the Record (QFR's) are listed below/available at: 
  docs.house.gov.

  * Testimony by Christina Suthammanont, Widow of Essential 
  Worker Chaicharn Suthammanont; submitted by Chairman Connolly.

  * Statements for the Record by Federal Workers Alliance, and 
  the Partnership of Public Service; submitted by Chairman 
  Connolly.

  * Letter of Guidance from OPM and OMB; submitted by Ranking 
  Member Hice.

  * Questions for the Record: to Ms. Loarraine Martin; submitted 
  by Chairman Connolly.

  * Questions for the Record: to J. Christopher Mihm; submitted 
  by Chairman Connolly.

  * Questions for the Record: to Ms. Jacqueline Simon; submitted 
  by Chairman Connolly.



                            FRONTLINE FEDS:

                  SERVING THE PUBLIC DURING A PANDEMIC

                              ----------                              


                        Thursday, June 25, 2020

                   House of Representatives
      Subcommittee on Government Operations
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 10:02 a.m., 
via Webex, Hon. Gerald E. Connolly, (chairman of the 
subcommittee) presiding.
    Present: Representatives Connolly, Sarbanes, Speier, 
Plaskett, Khanna, Raskin, Hice, Massie, Grothman, and Norman.
    Mr. Connolly. The subcommittee is convened. We're delighted 
to have everybody here to talk about the role of Federal 
employees during the pandemic. The committee will come to 
order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time. And I want to welcome you 
to our hearing on ``Frontline Feds: Serving the Public During a 
Pandemic.''
    This hearing will explore the multitude of ways in which 
Federal employees have provided for our Nation during this 
critical time. And it will examine what steps leaders need to 
take to protect the work force, making sure that health and 
safety are at the forefront of any decision to return those 
effectively working from home back to Federal offices.
    So, I now recognize myself for my opening statement, which 
is where? Thank you. Sorry.
    The need to support and protect the health and safety of 
the Federal work force has never been more important. Today's 
hearing about life and death decisions--and I mean life and 
death decisions--are being made by this administration amid the 
coronavirus pandemic that has already affected so many millions 
of our fellow Americans and tragically led to at least 121,000 
deaths. And, of course, it affects the 2.5 million Federal 
public servants and an estimated 3.7 million Federal 
contractors who comprise our civil service. Our Federal work 
force is our Nation's great asset. It's a duty to protect the 
health and safety of those public servants who continue to work 
throughout the pandemic.
    It is a very difficult time for everyone in our Nation and 
across the globe, but this is also an opportunity to remind our 
country of how much we rely on the Federal work force every 
single day. During the coronavirus pandemic, the Federal 
Government never shut down. In fact, our Federal work force has 
continued to work throughout the unprecedented time, even 
ramping up its efforts to ensure that the public has access to 
critical services, including new unemployment benefits, small 
business loans and grants, the financial relief provided 
directly to the American people by the Congress.
    Today's hearing will highlight the important work of 
Federal employees on the frontlines of this pandemic and also 
the incredible efforts of those working remotely.
    Today's hearing will also focus on what we can do to 
protect Federal employees while continuing government 
operations in providing vital resources to the American public. 
Let me be clear: Today's hearing is not about returning to 
work. The Federal work force has been working, tirelessly 
throughout the pandemic. This hearing is about ensuring that 
Federal agencies have plans and the necessary resources to 
enable continuity of operations throughout the pandemic. This 
hearing is about ensuring that thousands of Federal workers who 
have contracted the coronavirus are respected.
    Unfortunately, many of them have succumbed. The Postal 
Service, for example, has reported 1,606 positive cases, with 
60 deaths so far. The Veterans Health Administration reported 
1,633 positive cases and 20 deaths. The Bureau of Prisons has 
reported 1,346 Federal inmates and 172 staff testing positive 
for COVID-19, 87 of whom inmates have died and one staff member 
death at least due to COVID-19.
    Among the Federal workers who have lost their lives from 
the virus was my constituent, Chai Suthammanont. Chai was a 
Federal employee who lost his life after contracting the 
coronavirus while working as part of the kitchen staff at the 
Quantico daycare center at the Marine barracks. His widow 
related that, before the pandemic restricted such interactions, 
Chai, who was dedicated to his job caring for small children, 
invented a unique handshake with many children at the daycare, 
sharing a special greeting with them every day.
    My office sent a letter to Quantico asking about the 
policies in place to maintain a safe work environment. However, 
it remains unclear how effective the enforcement of those 
policies, in fact, were. We have to ensure that Federal 
agencies have smart evidence-based policies in place to protect 
the workers who are unable to work remotely. Any effort to 
return Federal and contract employees to the workplace must be 
done safely and consistent with guidance from public health 
experts and must ensure that all workers returning to their 
workplace have the proper protective equipment and ways to 
communicate their underlying health conditions or other 
concerns without fear of reprisal or removal. Federal employees 
are not pawns in a political tug of war. They are not symbols; 
they are real human beings with families living in the 
community, and they deserve the respect and dignity that we 
extend to any American.
    In an April letter to the Acting Director of the Office of 
Management and Budget, who is as also concurrently serving as 
the acting head of the Office of Personnel, this subcommittee 
noted grave concerns with respect to the administration's 
reopening guidance. The guidance fails to provide plans for 
Personal Protective Equipment and testing provisions for 
Federal employees. It also makes no mention for what agencies 
should do in the event coronavirus cases begin to spike again 
as we're currently witnessing throughout the South and 
Southwest of our country. It fails to take a leadership role, 
delegating all responsibilities to the agencies and their 
administrators without providing support and assistance in 
terms of how they should reopen. And, of course, what could go 
wrong with that in terms of something going horribly wrong?
    In recent coronavirus stimulus bills, Chairwoman Maloney 
and I championed several provisions offering protections and 
resources both to Federal and contract work forces as they 
continue to deliver services to the public during the pandemic. 
Checking the millions of those workers who continue to serve 
every day should not be a partisan issue. This is why, this 
morning, my colleagues and I introduced two pieces of 
legislation to support our civil servants.
    In remember of Chai, my constituent who succumbed to COVID-
19 doing his job as a Federal employee at Quantico Marine Base, 
we introduced legislation to require agencies to publish online 
coronavirus response plans for their individual workplaces. The 
bill would increase transparency and accountability and begin 
to ask employees to return to the Federal office buildings in a 
safe and protective environment. We also introduced the Federal 
Workforce Health and Safety During the Pandemic Act, which 
would, among other things, extend hazard pay and provide 
childcare reimbursement to those Federal employees work on the 
front lines.
    As our country continues to confront the threat of 
coronavirus, Congress must do more to protect the Federal work 
force. The men and women who serve our constituents every day. 
It's our duty as Congress and as overseers of the Federal 
Government to make sure any return to office space is done 
efficiently but safely, for the right reasons. No more lives 
should be lost because of lack of leadership, competence, and 
accountability.
    With that, I call upon my good friend Mr. Hice for his 
opening statement.
    Mr. Hice. Thank you, Mr. Chairman, and I appreciate your 
consistent advocating for our Federal employees, and certainly 
recognize the importance of today's hearing.
    If I may take a quick moment before I get to my opening 
statement, I know you and I talked about this briefly, but just 
for the record, I just want it to be known that I continue to 
have grave reservations about these online hearings. Even while 
we've been here, you have frozen up and we've had to reconnect. 
It's just--this is no way to do the people's business. The 
House is in session. We're here voting. I know myself and many 
of my Republican colleagues are here. We are ready to cast 
votes. We are ready to participate in real, in-person hearings 
and discussion.
    As you and I discussed earlier, we can have these hearings, 
particularly subcommittees, in the hearing rooms. We don't need 
to be skirting our duty to the American people. Yes, these are 
unprecedented times, I get that, but we have a duty to be here 
in Washington and to serve the people who elected us.
    So, with that, Mr. Chairman, I would just ask you, please, 
do everything you can to help us get back to working in person. 
This remote system is far, far from what we need to be doing.
    Mr. Connolly. Would my friend yield?
    Mr. Hice. I would be happy to.
    Mr. Connolly. As my friend knows, I actually agree with him 
that we ought to be moving toward in-person, real-time, real-
life hearings. That is my preference as well. I will work with 
him to try to make that a reality.
    Mr. Hice. Thank you.
    Mr. Connolly. As my friend also knows, there's been an 
upsurge in the infection amongst some of our employees here on 
Capitol Hill. There is a legitimate concern of what I just 
said; let's reopen efficiently and safely. And out of respect 
for the concern of many of our staff, employees have, and some 
members as well, I decided that today's hearing would continue 
in the remote mode. But I pledge to my friend: We'll work 
together to try to make sure we can safely resume hearings in 
real time, as opposed to virtual time. So, I duly note his 
concern. I'm not unsympathetic, but my primary concern is that 
we do it safely, and I know he shares that as well. Thank you.
    Mr. Hice. My pleasure. I do share the concern of doing it 
safely. As you well know, we have other committees that are 
meeting, subcommittees that are meeting. The Senate is meeting. 
And I believe we can as well in a safe manner. I thank you very 
much for your willingness to work to that end. I appreciate 
that greatly.
    As far as the hearing today, with the help of the American 
people and the cooperation of the American people, we as a 
Nation successfully flattened the curve as it relates to COVID-
19 and our hospital systems were indeed not overwhelmed. Our 
collective resolve to flatten the curve in that regard has 
nonetheless paid a tremendous cost to our economy, to people's 
lives, to people's livelihoods. Now we are in the process of 
moving toward reopening and restarting our economic system and 
prosperity for people. And during these trying times, as you 
mentioned, the Federal Government has remained open, 
particularly for essential services. They've been there to 
respond to the crisis. They've been there to serve the American 
people. And many of these Federal employees have been on the 
frontline during the coronavirus itself. They've been working 
each day to try to ensure that our country can continue to run.
    There have been other Federal employees who have been 
working from home, working remotely from different places. 
They've been balancing their responsibilities to the taxpayers 
with their responsibilities to serve the American people.
    From the very beginning of this crisis, the Trump 
administration has moved quickly to protect Federal employees 
from the coronavirus. For example, since February, OMB and the 
Office of Personnel Management have issued no less than 20 
guidance documents to agencies pertaining to ways that they can 
manage the work force during these unprecedented times. At 
every point, the Trump administration instructed agencies to 
provide employees with maximum flexibility--and that's 
extremely important--maximum flexibility so that they can care 
for their families while at the same time continuing to work.
    In April, the administration issued guidelines for agencies 
to reopen Federal facilities. Those guidelines were consistent 
with the same reopening guidelines for the private sector. My 
Democrat colleagues, many of them have criticized the Trump 
administration for rushing to reopen Federal facilities, but 
the Trump administration developed their guidelines with the 
CDC, the Centers for Disease Control. They also used the 
expertise of many within the private sector, many of whom have 
remained open during the entire economic shutdown.
    It's important for us to understand that the administration 
stresses that each agency must carefully consider their 
specific mission and the work force when they are planning to 
reopen and go beyond the remote setup. Absolutely, there is no 
such thing as a one size fits all as it relates to a reopening 
plan.
    So, while developing a plan to reopen, the agencies have 
been given guidelines and certain things to consider; among 
those are things like the location of the facilities. We all 
know that at least 85 percent of Federal employees work outside 
of Washington, DC. So, agencies need to consider the state and 
the location, the conditions that they have in their particular 
area when it comes to reopening plans. Also, they need to 
continue to use telework when necessary and when appropriate. 
That is a viable option. They also need to consider options for 
high-risk Federal employees. They need to provide sanitation 
and hygiene supplies and requirements to their offices, and 
they also need to perhaps modify any office space which does 
not allow for social distancing. These are just some examples 
that the administration has given agencies. I think these are 
very commonsense types of guidelines that have been put up 
there. So, we need to look at all of these, and we need to 
consider some of the various ways that we can transition our 
Federal work force.
    But it is time for the Federal Government and Congress, for 
that matter, to lead by example. We have got to reopen, and 
we've got to do so in a manner that is safe. The American 
people need to come back to work, and I believe now is the time 
for Congress and the Federal Government to lead by example.
    With that, Mr. Chairman, I yield back.
    Mr. Connolly. I thank my friend.
    Now I'd like to introduce our witnesses. Our first witness 
today is Jacqueline Simon, who is the national policy director 
of the American Federation of Government Employees.
    Are you here?
    Ms. Simon. Yes, I'm here.
    Mr. Connolly. We are also joined by Lorraine Martin, who is 
the president and chief executive officer of the National 
Safety Council.
    Ms. Martin, are you here?
    Ms. Martin. Yes, chairman.
    Mr. Connolly. Thank you.
    We will also hear from J. Christopher Mihm, who is the 
Managing Director for Strategic Issues for the Government 
Accountability Office.
    Are you here Mr. Mihm?
    Mr. Mihm. Yes, sir.
    Mr. Connolly. And, finally, I know he's here, the Honorable 
Jim DeMint, former Senator, and former Member of this body, the 
House. He is with the Conservative Partnership Institute. Mr. 
DeMint, are you here? Senator DeMint. Excuse me.
    Senator DeMint?
    Mr. DeMint. I am here. I was on mute, I apologize, Mr. 
Chairman.
    Mr. Connolly. No problem, no problem. I would ask four of 
you if you would raise your right hand to be sworn in. It is 
the custom of our subcommittee.
    Please raise your right hands to swear or affirm that the 
testimony you are about to give is the truth, the whole truth, 
and nothing but the truth, so help you God?
    Ms. Simon. I do.
    Ms. Martin. I do.
    Mr. Mihm. I do.
    Mr. DeMint. I do.
    Mr. Connolly. Thank you. Let the record show that all of 
our witnesses affirmed verbally they do.
    Without objection, your written statements will be entered 
into the record in full.
    With that, Ms. Simon, you're recognized for five minutes to 
summarize your testimony.
    Welcome.

   STATEMENT OF JACQUELINE SIMON, NATIONAL POLICY DIRECTOR, 
          AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES

    Ms. Simon. Thank you, Chairman Connolly, Ranking Member 
Hice, and members of the subcommittee. Thanks for the 
opportunity to testify today.
    I want to start by recognizing the amazing work being 
performed by Federal employees throughout the pandemic period. 
Eighty percent of DHS employees have continued working at their 
regular duty stations, and BOP corrections officers continue to 
work under difficult and dangerous circumstances.
    At the VA, our members have continued to provide hands-on 
patient care and kept the hospitals clean, patients fed, and 
buildings and equipment maintained. DOD civilians have likewise 
continued working at their installations throughout the 
pandemic, providing ongoing support to the Department and the 
troops.
    All have done so at risk to themselves and their families 
and without adequate PPE. And while no one would dispute that 
the term ``essential employees'' describes these workers, they 
are not the only Federal employees whose essential work has 
continued throughout the pandemic. Those working remotely have 
also been heroic in the task of maintaining operations with 
their agencies. Social Security, HUD, CDC, NIH, the Departments 
of Labor, Transportation, Agriculture, EPA, OPM, and more have 
all kept operations going at either the same or a higher level 
of productivity as before. Their work may be less visible to 
the public, but it is no less essential and deserves its own 
recognition.
    Three months of data have taught us what it takes to beat 
the pandemic and provide protection until there is either an 
effective vaccine or an effective treatment. We need testing, 
social distancing, and contract tracing so new outbreaks can be 
identified and contained. A premature end of these measures is 
a guarantee of resurgence and a guarantee that thousands more 
will suffer and die. Every effort should be made to avoid that 
outcome, not only for Federal employees but throughout the 
United States and the world.
    OMB's reopening guidance didn't address any of this. We 
responded to them with a letter that hasn't even received the 
courtesy of a response. We called for testing and 
acknowledgment that all workers need protection from this 
virus, not just those whose age or medical status makes them 
particularly vulnerable. We ask for strict compliance with all 
OSHA and CDC standards at all Federal workplaces, removal from 
workplaces of all symptomatic contractors and employees, and 
full compliance by agencies with all collective bargaining 
obligations associated with the changes in working conditions 
in the post-pandemic return to work site.
    We ask Congress for additional protections for Federal 
employees in light of the risk they face with COVID. Most were 
included in the HEROES Act, including premium pay and automatic 
presumption of workplace illness--purposes of workers comp, 
adequate PPE, telework, and emergency OSHA standard, and 
emergency paid sick leave for those left out of previous bill.
    As welcome as the HEROES Act is, there are several 
additional measures to protect Federal employees that we ask be 
part of subsequent legislation. These include universal 
testing, Title V rights for TSOs, a moratorium on the transfer 
of Federal prisoners during the pandemic, and a requirement 
that meat-packing plants slow down their line speed so workers 
and their inspectors can social distance and follow other CDC 
and OSHA guidelines.
    We also urge to you restore constructive, productive labor 
management communication as agencies implement new policies and 
procedures. The administration's May 2018 EOs are hurting the 
government's response to this pandemic. Union reps should be 
able to discuss the needs and concerns of employees and help 
agencies by providing ideas and feedback as we all adapt to 
this new environment and respond to the needs of the public, 
but we can't because of the EOs. We therefore ask the committee 
to try to persuade agencies to set aside the antiunion, anti-
collective bargaining stance the administration has advocated, 
even if just to address COVID-19.
    One of the many tragedies associated with the pandemic is 
that, now that we know what is necessary to stop its spread, 
it's likely that the Federal Government will reopen too soon. 
As a consequence, instead of stopping the spread of COVID-19, 
the government itself will contribute to the continuation and 
possible worsening of the pandemic. At one point, we didn't 
know if widespread telework would work out, but now there's no 
excuse. At one point, we didn't have adequate supplies of PPE 
for those at their regular duty station, but today there's no 
excuse. There should be no reopening unless and until Federal 
agencies have the full capacity to test, protect, trace, and 
inform their work forces, and unless and until genuine 
objective data on the status of the pandemic shows it has 
subsided.
    And where there is resurgence, we should have reclosing not 
reopening.
    Since so many have been teleworking successfully throughout 
the pandemic, we inevitably ask, why the rush to return? It is 
clear in many locations the rush is motivated by politics, not 
the health and safety of the work force or the community. 
Politics should not be a factor in any agency's return to 
normal operations. Only objective measures of safety should be 
considered.
    Thank you, and I'll be happy to answer any questions you 
may have.
    Mr. Connolly. Thank you, Ms. Simon.
    And by the way, I've been admiring the piece of art behind 
you.
    Ms. Simon. Thanks.
    Mr. Connolly. Where is it from?
    Ms. Simon. Haiti.
    Mr. Connolly. Beautiful. Thank you.
    Our next witness is Lorraine Martin, president and chief 
executive officer of the National Safety Council.
    Ms. Martin, you have five minutes.

  STATEMENT OF LORRAINE MARTIN, PRESIDENT AND CHIEF EXECUTIVE 
                OFFICER, NATIONAL SAFETY COUNCIL

    Ms. Martin. Chairman Connolly, and Ranking Member Hice, and 
members of the subcommittee, thank you for inviting me to 
testify on the safety and health of the Federal work force. I 
commend the subcommittee for focusing on this topic during 
National Safety Month.
    I know firsthand this is a vital conversation for our 
Nation. Our economic recovery is centered upon workers feeling 
safe in the work they do and the work environment in which they 
support their organization's mission.
    For the past 35 years of my career, I've served as part of 
and alongside Federal workers. Early on, I served in the U.S. 
Air Force and transitioned to working directly with military 
and civilian work force in my career with a Federal contractor. 
Now, I'm honored to serve and provide resources to directly 
support the health and safety of these workers through the 
National Safety Council.
    The men and women throughout the government work force are 
committed public servants. There is a great care and 
consideration that should be given to whether a traditional 
work arrangement is needed now or still required for every job. 
The last thing we want to see is for Federal work sites to 
become focal points for the transmission of the coronavirus.
    Some job needs and locations are obvious. For example, VA 
healthcare providers must go to those facilities to tend to 
patients. Our men and women in uniform have duty assignments to 
fulfill. And we have tens of thousands of Federal workers in 
other countries working to support our interests abroad, many 
of whom must go to a traditional work site.
    However, for the workers who serve at a desk with a 
computer for most of their day and who likely have been working 
at home in the past weeks, decisionmakers should not rush to 
require them to report to a traditional office if it isn't 
necessary. To help employers decide how best to prioritize 
safety, the council brought together large and small companies, 
nonprofits, legal experts, public health professionals, medical 
professionals and government agency representatives to launch 
SAFER. That's Safe Actions for Employee Returns. The council 
leveraged our leadership and experience in workplace safety to 
bring together the best information from organizations around 
the world and use that information to develop one-stop play 
books. These play books provide information and resources and 
tips for employees on when and how to safely return employees 
to their traditional work environments, covering topics like 
physical safety, mental health, employment, and H.R. needs.
    SAFER looks at a variety of work settings, such as offices, 
closed industrial, open industrial, and customer-facing 
workplaces. And maybe most helpful to answer questions facing 
leaders today are the quick hits that address topics like 
notifying staff of confirmed COVID cases, screening and testing 
of employees, ensuring workplace hygiene and reopening 
protocols, to list just a few. The links to these samples are 
included in my full testimony.
    As our understanding of coronavirus increases, the council 
will keep our recommendations current. The council benefits 
from rich knowledge from our private sector partners, several 
of which have facilities around the world. These organizations 
have shared their knowledge and early insights from those 
experiences. Clearly, testing is a key factor to be addressed.
    In March, the council wrote to Vice President Pence with 70 
other employer organizations stressing the need for testing of 
workers. This is the bedrock of keeping employees safe and 
healthy during this pandemic and should be fully integrated 
into all plans developed for the Federal work force.
    Our country and its citizens have all experienced great 
trauma because of the coronavirus. Worrying about one's safety 
and well-being at work should not needlessly be added to this 
burden.
    I appreciate your leadership, Mr. Chairman, in holding this 
hearing to support the safety and health of the millions of 
Federal workers. Workers who believe their safety and health is 
a priority will be the foundation of our economic recovery.
    I look forward to answering your questions.
    Mr. Connolly. Thank you so much, Ms. Martin.
    Our next witness is J. Christopher Mihm, Managing Director 
of Strategic Issues for GAO, the Government Accountability 
Office.
    Mr. Mihm you're recognized for five minutes.

    STATEMENT OF J. CHRISTOPHER MIHM, MANAGING DIRECTOR FOR 
       STRATEGIC ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Mihm. Thank you, Chairman Connolly, and Mr. Hice, and 
members of the subcommittee. I'm honored to be here today to 
discuss our work on behalf of the Congress that--and 
considerations that agencies can have as they bring their 
employees back to their workplaces.
    As you a noted, Mr. Chairman, this is not about reopening, 
this is about reentering because the tens of thousands of 
dedicated Federal employees have continued to work during the 
height of the crisis.
    My statement discusses three broad areas: Key 
considerations for Federal agencies as employees reenter the 
workplace; second, how the Census Bureau was forced to suspend 
major Census operations and how it resumed those operations; 
and, third, practices for ensuring telework contributes to 
continuity of operations and lessons learned to inform 
opportunities going forward. We have ongoing work for the 
Congress in each of these areas. And as part of that, we are 
reviewing successes and challenges that agencies are 
experiencing and how they are addressing those challenges.
    In the interest of brevity, I will just hit the highlights 
of the three broad topics in my prepared statement. First, in 
regard to considerations about reentry to the workplace, we 
have previously reported on the government's response to and 
lessons learned from the H1N1 pandemic in 2009. Based on those 
lessons and informed obviously by more recent events, we 
identified key issues for agencies to consider as they think 
about reentry. One of those issues at the agencies is that the 
agencies should maintain continuous two-way communication with 
employees and their representatives during the pandemic. In 
particular, agencies need to be aggressive in seeking out 
employee concerns and communicating with them about personnel 
guidance, such as pay options, leave, staffing, and other 
flexibilities that are available to employees to help them 
ensure the continuity of the operations and vital mission needs 
continue to be met. This is obviously the point that Mr. Hice 
was making about the challenges that employees face in 
balancing their personal and family responsibilities while at 
the same time making sure the mission needs are accomplished.
    Another consideration is the importance of agencies 
factoring in component and facility level determinations 
regarding reentries and not having an across-the-board national 
determination in their decisions. I would particularly stress 
that as agencies consider local conditions, they should share 
information and cooperate with other agencies located in the 
same geographic area so that we both have a common set of facts 
that agencies are working on and so that messages are clear to 
employees across Federal agencies.
    My second major point this morning concerns how the Census 
Bureau suspended major Census field operations and the process 
it used to resume those operations. The Bureau has a large 
field infrastructure of 248 area Census offices and tens of 
thousands of short-term staff to take the Decennial Census. On 
March 11th, the World Health Organization declared COVID-19 a 
pandemic. This was just the day before invitations to respond 
to the 2020 Census arrived in mailboxes across the country and 
its peak Census operations were set to begin. However, as a 
result, the Bureau was forced to suspend its field operations.
    As of June 11th, gratefully, all Census field operations 
had resumed. Key aspects to resuming these operations included 
a phased approach to reopening based on local conditions and 
local science and data; operational changes to the Census in 
response to the challenges posed by COVID-19; addressing worker 
safety concerns, including the PPE and other issues that you've 
discussed, Mr. Chairman; communicating pandemic plans to ensure 
continued operations and continuity planning for risk.
    My third and final point concerns telework. We've 
identified several practices that help agencies ensure their 
telework programs contribute to continuity of operations during 
COVID-19 and other major emergencies.
    These practices are especially important if substantial 
numbers of employees remain out of their workplaces for an 
extended period or if agencies need to revise their reentry 
decisions based on changing local public health circumstances. 
Very importantly, in our view, agencies' experiences with 
telework during the pandemic suggest opportunities for 
increased availability of telework in the future.
    In summary, Mr. Chairman, the evolving and growing 
challenges for the COVID-19 pandemic present critical work 
force safety issues for Federal agencies to assess and address 
as they seek to continue their operations.
    I will end it there. Thank you again, Chairman Connolly and 
Mr. Hice and members of the subcommittee. I look forward to 
responding to any questions you may have.
    Mr. Connolly. Thank you, Mr. Mihm.
    And it gives me great pleasure now to recognize our former 
colleague and former Member of the U.S. Senate, the Honorable 
Jim DeMint.
    Senator DeMint, you're recognized for five minutes.

 STATEMENT OF THE HONORABLE JIM DEMINT, CHAIRMAN, CONSERVATIVE 
                     PARTNERSHIP INSTITUTE

    Mr. DeMint. Thank you, Mr. Chairman. It is good to be back 
in the House at least virtually at this point. I want to thank 
the ranking member, every member of the committee.
    And I particularly enjoyed listening to the witnesses 
today. It is certainly important to listen to all sides of this 
and the different cautions.
    My role today is a little different in that, over the last 
three months, most of my work has been over the phone. I think 
I can provide a little bit of an outside perspective from 
people all over the country in how that might relate to Federal 
employees and expanding the reopening.
    But I appreciate your perspective, Mr. Chairman that the 
Federal Government employees have been at work. It is just a 
matter of how we get back to facility-based work in a safe 
manner.
    I have talked to retailers, restaurants, car dealers, 
theater owners, lots of manufacturers. And I have found that 
there is a lot of different opinions about what the local, 
state, and Federal Governments have done right and wrong. But 
despite all those different opinions, particularly given a lot 
of new medical data about the virus, there's a strong consensus 
that we not only should get back to work but do everything we 
can to safely return to normalcy. I hear that a lot that people 
just want to go back to their lives.
    I mean, while none of us have turned out to be medical 
experts, and that includes the medical people during this 
crisis, we have seen, as more data has come in, that real 
dangers to this virus are for older people with sick 
conditions; over 80 percent are in nursing facilities. And the 
risk of serious illness and death to healthy, working age 
Americans is really low.
    That's not without exceptions, Mr. Chairman, that you 
pointed out. But I think and relatively speaking, healthy 
Americans can get back to work at this point.
    I've also been on the phone--and this relates to Federal 
employees as part of the Economic Recovery Task Force for the 
President--with a lot of America's CEOs in charge of some of 
the largest companies that we have, with thousands, tens of 
thousands of employees that are analogous in many ways to the 
challenges the Federal Government has with offices in almost 
every state. The configuration of offices being very different 
and the roles of the employees being very different. But it's 
clear from being on the phone with these CEOs that they have 
developed a lot of very detailed best practices on how to 
return to work safely. A lot of these ideas apply I think to 
the Federal work force. But even then, the CEOs are very 
concerned about the health of their employees, and they are 
working closely in many cases with the unions. There's a lot of 
agreement on what needs to be done and how it needs to be done. 
But the key here, Mr. Chairman, if I could just share this, it 
is very important at this point, not only for Americans outside 
the Federal Government, but to allow Federal Government 
employees as much as possible to return to normalcy. And it's 
very important that the Federal Government, Congress itself, 
set an example that we need to get back to normalcy. We need to 
open things back up and we need to show as Federal employees 
how this can be done in a reasonable and safe way.
    One point we hear from the CEOs a lot, given the difference 
in different parts of the country, is the need to be flexible. 
A one size fits all, whether it is coming from a corporate 
office or the Federal Government, is likely to do more harm 
than good in many cases. So, we certainly need to have general 
guidelines. We need to follow the safety guidelines that we 
know. But the Federal Government needs to set the example that 
we need to get back to full work now, and they need to set an 
example of how it can be done.
    My last point, Mr. Chairman, and I think you or the ranking 
member have already mentioned this: millions and millions of 
American jobs are dependent on Federal contracting. And I've 
heard, as I've called around the country, so many say that 
their businesses have been slowed down or even shut down 
because Federal contracting has been delayed or suspended 
indefinitely. So, we have a supply chain that goes back to some 
of these large companies that involve many, many small 
companies all over the country. We need to--I think the first 
step here is, regardless of whether we are working at home or 
in offices, is to get Federal contracting back to full speed 
because that will open up I think millions of jobs across the 
country.
    Thank you, Mr. Chairman, and I believe I've used my time. I 
will yield back.
    Mr. Connolly. Thank you very much, Senator. We appreciate 
you being here.
    I will begin with my line of questioning. As I said 
earlier, the administration's guidance for reentering the 
Federal office space, frankly, concerns me. It hardly qualifies 
as guidance. It is incomplete, unclear, fails to prioritize 
health and safety for Federal workers. In fact, it is so 
confusing that agency leaders don't know where to turn for data 
and evidence to determine whether their reopening is safe. 
Federal workers have no idea what's happening. There's no 
mention of PPE, testing, or even any thought of contingency 
plans if the virus should resurge.
    The office reentry strategy represents the same old lack of 
leadership and clarity that's been consistent throughout this 
pandemic. I don't think that's asking for too much.
    Here's IBM's plan. It's an office reentry plan, which, on 
page seven, includes plans for PPE. It provides a readiness 
checklist for the site leaders that's four pages long.
    Amazon is building diagnostic labs where it will test each 
of its workers for coronavirus every two weeks. And if an 
employee tests positive, they immediately provide telehealth 
services.
    The Lear Corporation, a fortune 500 company that 
manufactures auto seating and electrical systems, created an 
online interactive safe work playbook that includes the 
creation of a pandemic response team, including assigning 
individuals to focus on virus prevention and PPE availability. 
The playbook, which they have made downloadable to anybody, 
incorporates employee training in their return-to-work plan, 
creates position specific to communicating that plan with 
employees, and, woe is me, they even thought through engaging 
their unions. What a thought.
    So, let me ask, Ms. Simon, do we have something like that 
that has been communicated to you and your Federal employees?
    Ms. Simon. Absolutely not. As you alluded to earlier, it's 
a complete patchwork. There's not only inconsistency among the 
agencies, but inconsistency from location to location. One 
exception, which always seems to be the exception, is TSA that 
has unilaterally decided that any of its transportation 
security officers who are in the CDC high-risk category are no 
longer going to be eligible for weather and safety leave. They 
are absolutely on their own. They can either use sick leave or 
annual leave or come to work. This is being done not on a 
regional basis, as OMB suggested, but across the board 
nationally. And you cited the numbers of infections of 
transportation security officers. There is certainly--we had a 
huge fight with them to get them to even permit officers to 
wear face masks, let alone to have the face masks or any other 
PPE provided by the employer.
    Mr. Connolly. Ms. Simon, if I may because I'm going to run 
out of time. Surely, given the fact that you represent so many 
Federal employees, you and your leadership, your colleagues 
have been consulted by OPM in terms of what kind of guidance 
ought to be issued and is being issued to safely reenter?
    Ms. Simon. I wish I could say yes, but the answer is 
absolutely not. Not only have we not received any response to 
our communication with the Acting Directors of OPM and OMB, but 
OPM seems to be cut out of the process entirely as part of the 
administration's effort to pretend that they succeeded in their 
plan to abolish OPM.
    Mr. Connolly. Ms. Martin, Senator DeMint says let's use the 
Federal Government as an exemplar for how to reopen. Let's 
reopen and set a model. Meanwhile, the virus is resurging 
throughout the South and Southwest of the United States. 
Florida, Texas, Arizona are having the highest rates of 
infection recorded every single day in the last week or two. 
And, unfortunately, we believe mortality will follow. Is it 
safe to make the Federal Government in those parts of the 
United States a model for reopening and get back to work and 
let's do it like normal?
    Ms. Martin. I do think this is a place where the Federal 
Government can set the example, but the example that I would 
like to see be set is that we are following all the guidance 
from the health organizations, from some of the companies, like 
you have just referenced, the Amazons, the IBMs, who have 
facilities around the world, and have very detailed playbooks 
on how to bring their folks back to work and when to bring them 
back. And when is really important. That has to be advised by 
the location, the country or, in this case, a state and what's 
happening locally, and how you can look at the metrics there 
and make the right decisions. All risk assessments for 
businesses that I've seen, and I've seen hundreds of the 
playbooks like the ones that you held up, and they all have 
criteria associated with how the disease is progressing and 
what would be affecting their work force. They make decisions 
based on that for their employees with safety first and then 
operations second.
    Mr. Connolly. And my final question goes to Mr. Mihm.
    Mr. Mihm, I held up the IBM plan. Do you believe that we 
have something comparable and detailed that is a workable plan 
issued by OPM or OMB in the Federal workplace?
    Mr. Mihm. We have not seen one, Mr. Chairman.
    In fact, the work that we are doing on behalf of the 
committee is to go to Federal agencies and ask them for their 
playbooks, and look at both--check first the existence of those 
and then to do an analysis across various agencies to see what 
the commonalities are and to see if there are differences. And 
if those differences exist, are they thoughtful and considered 
differences, or are they just a factor that they were done by 
different organizations at different points in time?
    Our concern, and I mentioned this in my statement, is that 
when you look at the local levels where this reentry will take 
place with the 80 percent of the Federal employees outside of 
the Washington area, when you look the at these local levels, 
we need to make sure that the Federal agencies there are 
sharing information, sharing science, working off of a common 
set of understandings so that the employees are getting--across 
the Federal Government are getting a consistent message.
    Mr. Connolly. So, Mr. Mihm, final point, Mr. DeMint takes, 
you know, takes a position that, look, there might be risk, but 
we have got to set a model; we have got to reopen and return 
kind of to normal. But would you agree that, in order to do 
that, there has to be a plan that in which the 2.5 million 
Federal employees and 3.5 million Federal contract employees 
have confidence?
    Mr. Mihm. Absolutely, sir. I mean, nobody wants to be in a 
sense shut down. It means it has big economic consequences, as 
we all know. But we have to also have confidence and the 
employees have to have confidence that, as we reopen, that they 
will be safe in the workplaces, they will be safe in their 
interactions with the public. And the public needs to have 
confidence that they will be safe in their interactions with 
government. So, that's the importance of the planning that 
we've been discussing.
    Mr. Connolly. I thank you.
    My time is up.
    The chair recognizes the gentleman from Georgia, Mr. Hice 
for five minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    I would ask permission to submit for the record the 
guidance that has been released from OMB and OPM and others. If 
you would allow, that I would appreciate it.
    Mr. Connolly. I absolutely would. Without objection.
    Mr. Connolly. And it is before your time starts--I would 
ask for similar consideration. I have a number of statements 
for the record from the Federal Workers Alliance, for the 
Partnership of Public Service, among others. I would just ask 
that their written statements be entered as well, without 
objection.
    Mr. Connolly. Mr. Hice, you're recognized for--I think I 
may have gone over so, Mr. Hice, go for six.
    Mr. Hice. Thank you very much, Mr. Chairman.
    Ms. Simon, I would like to start with you just by really a 
question of curiosity. Federal employee union members who are 
operating on official time 100 percent of their time who 
exclusively are working for the union, have they continued 
working remotely for the unions during this period of time?
    Ms. Simon. Part of an agency or component of an agency that 
has telework for its work force and the work force we 
represent, then they are also working remotely. In cases where 
they are representing employees who are at their regular work 
site, for example, in the prisons, in the VA hospitals, in DOD 
installations, they are right there with the members that they 
represent.
    Mr. Hice. So, am I taking this as a yes answer, that they 
are continuing to work?
    Ms. Simon. Well, they are certainly continuing to perform 
the function. Yes, they are continuing to work, absolutely, 
yes.
    Mr. Hice. For the union. OK.
    Ms. Simon. No. They are working for the government in their 
capacity as union representatives. I'm sorry.
    Mr. Hice. OK. It's----
    Senator DeMint, I want to come over to you. It is easy for 
us to say at times like this that politics doesn't need to get 
involved. I totally 100 percent agree with Ms. Simon on that. 
We don't need politics involved when we're dealing with 
pandemics and circumstances that we're dealing with in the 
country. Unfortunately, her implied answer to that is that 
politics is involved when we're trying to reopen or reenter, 
and I see it frankly just the opposite. It's easy to talk about 
closing the economy when you're with the Federal Government and 
you continue getting paid all the time. But individuals who 
have lost their jobs, who are not getting paid, it is not a 
political thing to tell them to stay closed. I mean, it's not a 
political thing, I mean, to tell them that they shouldn't go 
back to work.
    The American people are creative. They are innovative. They 
are smart enough to work and be safe at the same time. I think 
frankly that's the direction we need to go. So, Senator, I'd 
like to just kind of utilize the private sector, if I can, 
because they are the ones that are really leading the way in 
reopening. Federal Government for the most part--although, 
Federal Government is doing some good things with the telework. 
I get that; that's good. But as far as reentering the economy 
the way it needs to go, the private sector is leading the way. 
And, of course, Georgia has started that and are doing quite 
well with it. But the American people helped slow down the 
virus, helped prevent the hospitals from being overwhelmed. The 
American people came together to stop the spread of this thing. 
Why is it so critical for us now to reopen, Senator?
    Mr. DeMint. Well, we cannot continue with an idle Nation in 
a sense that we certainly haven't been totally idle, but the 
millions of people out of work tell us that we need to get back 
to work, and the Federal Government is a big component of that. 
There's a little bit of disconnect of what I've heard today 
because I know I've seen very detailed guidelines issued by the 
administration of how to return the Federal workers safely. I 
also know, whether it is IBM or some of these other larger 
companies, the best practices for safety are being shared, not 
only between the companies but with our Federal Government. So 
we know how to do this right.
    But I've heard this probably more times than I could ever 
remember, that folks older than me, even folks with conditions 
as, hey, we cannot remove the risk of going to work or going 
back to life. It's time to take our chances and go back to 
normal. We cannot keep our country shut down. It's affecting 
people emotionally, as well as financially. We're closing 
businesses down which will never reopen. It could take decades 
to rebuild some components of our economy.
    The Federal Government needs to set an example. They need 
to set an example on how to do it right, but how to do it now. 
And as I mentioned before, we need to reopen all the 
contracting that's available because that will immediately 
affect millions of jobs.
    Mr. Hice. Whether we are dealing with the private sector or 
the Federal Government, how important is the whole issue of 
schools reopening? As long as schools are closed, it seems to 
me like we can't really get back to normal. And, of course, 
that's the lowest risk group that we have.
    Mr. DeMint. Congressman, that's my point, is they are the 
lowest risk group. If school is not full speed in the fall, a 
lot of folks will have to deal with childcare they otherwise 
wouldn't. And if we can't accept that--I mean, these kids are 
not at risk from this virus. They need to be back in school. 
It's a big part of showing America is back to normalcy. So, I 
would see that as a key signal that the Federal Government 
needs to send to the states and to Americans that the 
expectation is, is that we will be back in school full time in 
the fall.
    Mr. Hice. Thank you. I see my time has expired. I think, 
Mr. Chairman, some of that time went when I was asking for 
unanimous consent. But I will just have one more final question 
for the Senator.
    Mr. Connolly. No problem. No problem, Mr. Hice.
    Mr. Hice. Thank you, Mr. Chairman.
    No question we are seeing a rise in cases again, but we are 
also seeing fewer people in the hospitals. Our hospitals are 
still not being overwhelmed. We are seeing fewer deaths at this 
point. We are learning how to handle this virus more 
effectively right now, even without an official vaccine. But 
even with the rise in cases, do you believe that that should 
bring about another shut down?
    Mr. DeMint. Absolutely not. We cannot shut the government 
down, regardless of what happens here. I mean, we do not have 
the capacity as a Nation to do this. But what we're seeing, 
though--and part of this is good is that the rate of increase 
is coming from states like South Carolina from a very low base, 
and a lot of it comes from more people being tested. As you 
indicated, all the data is indicating that the death rate has 
gone down. There is plenty of hospital capacity to deal with 
this. We have got better treatments for the disease. So, I 
mean, we are ready for infections. But I will just leave with 
this one thing, they tested the Clemson Football Team just to 
see if anyone had it. Twenty-three players had it, but hardly 
any of them knew that they were even sick at all. So, it's--the 
infection rate is apparently going to run its course around the 
country. And hopefully we'll be at a vaccine very soon. And 
folks who are sick and older need to take care. We need to make 
sure that the Federal workers with conditions can have all the 
flexibility they need. But those who are healthy and under 60, 
we need to get back to normal.
    Mr. Hice. Well, thank you. And I'm glad the Clemson 
Football Team is healthy. Time to get back to football
    [inaudible].
    With that, I yield back.
    Mr. DeMint. Yes. You might win if they are sick, Jody.
    Mr. Connolly. Thank you very much.
    The chair would note that public polling shows the 
substantial majority of the American people believe that, even 
at the cost of the economy, we should put the priority on 
health and safety before we return to, quote, normalcy, 
unquote.
    Is the gentlewoman from California on the line? She is 
next. Ms. Speier.
    If not, the chair recognizes the gentleman from Maryland, 
Mr. Sarbanes, for five minutes.
    Mr. Sarbanes. Thank you very much, Mr. Chairman. Can you 
hear me? Can you hear me?
    Mr. Connolly. Yes, we can hear you, John.
    Mr. Sarbanes. Thanks very much, Chairman Connolly. I 
appreciate the hearing today, and it is a very important topic.
    As you know, because you've been a great ally and a leader 
on it, telework is a very critical resource and option and 
opportunity for our Federal workers. I want to thank you for 
all your help as we pulled together the Telework Enhancement 
Act of 2010 and your leadership since then in making sure that 
our Federal agencies are taking full advantage of what telework 
can offer. Obviously, in this moment, we're seeing the full use 
of telework. There are agencies that have embraced it for many 
years and I think
    [inaudible], but there are others, including our own 
staffs, now here in the Federal Government are becoming much 
skilled in telework and frankly seeing the productivity that 
can result from utilizing that option.
    I know that AFGE has commended the success of telework 
during this pandemic in terms of Federal Government's use of 
that option. Agencies like the Veterans Benefits Administration 
have actually been processing claims at a higher rate during 
this time period than is typical so I think that shows the 
telework option.
    Mr. Mihm, can you describe some of the benefits that you've 
seen the utilization of the telework option
    [inaudible]?
    Mr. Mihm. Certainly, Mr. Sarbanes, there is. In fact, this 
is so important an issue to us that we have two new reviews 
that are just starting out, one looking at the technological 
aspects of telework and whether or not there is support of that 
in terms of a bandwidth, and one looking more broadly about 
policies and procedures on that.
    It is very clear to us--and when I say ``us,'' I'm also 
talking internally to GAO--the advantages of having a telework-
ready environment in the use of telework. We, like many other 
agencies, went to complete telework at the beginning of the 
pandemic. And it's been completely seamless to us from a 
technological and operational standpoint, the bandwidth of our 
technology has worked well. We continue to issue reports in the 
normal timeframes. The Comptroller General will be testifying 
tomorrow in front of the Congress on our first 90-day report 
that was required under the CARES Act, and that is obviously a 
substantial body of work that he will be informing the Congress 
on what we found and the recommendations associated with that. 
So, from an operation technological standpoint, it certainly 
has been normal, and if anything, it has gotten a little bit 
better.
    The challenge that we all see--and it gets back to what the 
ranking member was mentioning in his opening statement--is some 
of the in the interpersonal issues associated with the stresses 
that people are feeling during the current moment in having to 
care for family members, small children, worries about 
employment for spouses and loved ones. That obviously is a big 
issue, but that's not a telework issue per se, and we are 
working through those as many other agencies. So, the bottom 
line is it's a huge advantage even during normal times and 
especially now.
    Mr. Sarbanes. Thank you very much for that answer.
    Ms. Martin, let me ask you this question. As we begin to 
reopen some workplaces and carefully examine the opportunity to 
get back into a traditional workspace, I assume it is going to 
make sense to look at how to combine telework with traditional 
work environments, because if you
    [inaudible] offload a certain part of the work force
    [inaudible] to the
    [inaudible] opportunity, then you have less people coming 
back into the traditional workspace, more opportunity for 
distancing and precautions to be put in place. Could you speak 
for just a moment on what you see that kind of combination 
response as we move forward and begin to do some of the 
reopening of these traditional workplaces?
    Ms. Martin. Yes, certainly.
    And thank you for that question, Congressman. Most 
organizations are, like I said, seem to have sort of that 
hybrid situation for some time and, in some cases, maybe 
forever. Many businesses were already looking at what they 
called the future of work and understanding how to tap, you 
know, the richest set of intellectual humans around the world 
and to be able to do that perhaps not at a physical location.
    So, this was a trend that a lot of folks were already 
looking at how to do and do this well: to have locations where 
you could get together and have headquarters and other kinds of 
operations, but also to make sure that you could connect-in 
employees remotely.
    This has certainly enabled us to test that in some very 
important ways for technology, as you mentioned, for making 
sure that we can communicate well with employees even if 
they're not physically with us, and making sure that we're 
addressing the mental health side of that as well. We talked a 
little bit about the stress today from the coronavirus, but our 
work forces go through stress on all kinds of things, and it's 
always important for employers to be focused on mental health 
regardless of where they are.
    So, that's one of the reasons that our
    [inaudible] NSC.org SAFER also has a lot of mental health 
related
    [inaudible]. This is here to say. I will tell you from all 
the businesses I've talked to from my own organization, we went 
to both telework, except for three employees as part of our 
warehouse, and it's worked very well.
    These are jobs that we thought could not be remote, and 
they are now, and they've done really well. Our productivity in 
some areas has exceeded what it was when we were in the 
building. So, this is here to stay. I think we can get a lot of 
best practices for this. It will be a hybrid situation for most 
companies, at least for the next, I would say, months, maybe 
years as we look to phase the work force, as we repack certain 
subsets, and make sure that our buildings, if we do need to use 
them, have the kind of physical separation that's going to be 
required for safety.
    Mr. Sarbanes. Thank you.
    Mr. Connolly. Thank you.
    Mr. Sarbanes. Thank you very much.
    I yield back.
    Mr. Connolly. Thank you, Mr. Sarbanes. And thank you for 
your leadership in telework. It was prescient and we need more 
of it. It clearly forms the basis for any continuity of 
operations plan we can have.
    The chair now recognizes the gentleman from Wisconsin, Mr. 
Grothman, for five minutes.
    Mr. Grothman. Can you hear me?
    Mr. Connolly. Yes, we can hear you fine, Steve.
    Mr. Grothman. OK. Thank you. Got a couple questions here 
for Mr. DeMint.
    There's been a lot of focus on people who, in essence, been 
laid off or haven't had jobs during the COVID. But still, at 
least in my district, the vast majority of people still work, 
be it hospitals. We have a lot of food processing, big 
factories with hundreds of people still working. Some retail 
remains open.
    What is the justification--if someone else wants to jump in 
as well that's ok. Federal workers are important. In Wisconsin, 
we aren't getting our tax refunds or not getting tax refunds 
like we should because they're processed by an IRS center in 
Fresno, which is apparently still closed.
    With so many private-sector employers open and, quite 
frankly, a lot of the people who are still not working because 
of high unemployment benefits, what is the hypothetical 
rational for saying the Federal work force cannot open with the 
private sector?
    What do I tell people back home who are working when they 
didn't get their tax refund for months because Fresno IRS is 
closed while they've been working throughout this whole thing?
    Mr. DeMint. Thank you, Congressman.
    Certainly, the Federal Government needs to be an example 
everywhere we can. As I mentioned before, folks are getting 
back to work in a large part of the country. Things are opening 
up. Restaurants are going back to dining indoors, and they're 
taking new precautions. So, I think it's a bad thing for our 
Federal employees, who serve the public, to be following what 
we're doing in the private sector.
    We need to set an example of folks who are back to work 
serving the people, but as has been said in many ways today, we 
can do that safely, particularly for younger workers, but we 
cannot add this regimen of all these things that have to be 
done before someone can come back to work. And we've got to 
make it so it's a reasonable, safe situation, but the Federal 
Government needs to set an example.
    And I know that the economic task force of the President is 
working closely with a lot of businesses who have established 
best practices. They're also working with unions around the 
country. I've been on the phone with a number of them, with the 
President. So, they're not being left out of this process. So, 
the Federal Government needs to work.
    Mr. Grothman. Thanks so much. I know I'm supposed to ask 
you questions, but we'll ask Chris a question anyway since this 
is bipartisan.
    Chris, could you tell me what should I tell the people in 
my district who have been working throughout this whole thing 
if they can't get their tax refunds because the Feds have 
closed in Fresno, Chris, what should I tell them? Why do we 
have this different standard? Why are they at work throughout 
this whole thing, but for some reason, the Feds can't open?
    Mr. Mihm. Sir, I guess there's a couple of things, is that, 
one, the conditions in Fresno may be a little bit different 
than what they are--and I'm using that conditionally because I 
don't know the situation in your district in Wisconsin. The 
conditions may be different on the ground in a very localized 
sense.
    I think, though, that the larger point of making sure that 
the Federal Government is able to reopen is that many Federal 
employees I think you can tell them have been working, and 
that's the telework discussion that we've still had. Many 
others are opening back up or reentering as local conditions 
allow on that, but we still need to make sure, just like the 
private sector should make sure, that there's safety for the 
employees as they're returning.
    Mr. Grothman. Yes. Right now, everybody's open. Retail is 
open. Restaurants are open. Many even for dining. They stayed 
open for, you know, just takeout before. I really right offhand 
almost can't think of anything in my district that's not open. 
And, you know, we've had a mild reduction in hospitalizations 
even with the reopening.
    As you know, nationwide we have reduction in deaths even 
with reopenings. And last couple days not as good, but I think 
there were about 13 days of under a thousand deaths or 
something, which is I think the first time since March that 
we've been there. I just--maybe you can give me a reason why 
they can't get it done on a Federal level where they are 
getting it done in the private sector across the board in so 
many factories?
    Man, the parking lots are packed at third shift. They've 
been packed all the way through, you know. I don't know what to 
tell these folks, and it just kind of looks bad. We maybe have 
time for one more question. Maybe Lorraine can tell me, what is 
the deal here? Why is my district all opening up and we have a 
reduction in hospitalizations of COVID at the same time and, 
you know, a lot of the Federal agencies aren't? What is the 
difference here?
    Ms. Martin. Yes. So, for any business, the first thing you 
need to do is look at your risk profile, and we have tools, so 
do others, that can help you understand how are you putting 
your employees and the public you interact with at risk and 
make sure you take whatever the recommended guidance is for 
that.
    For a lot of businesses, even the ones with factories, 
while the factories are running, they've re-designed their 
work----
    Mr. Grothman. They're doing it. That's the point I'm trying 
to make.
    Ms. Martin. And their office workers, wherever possible, 
are still home. I've talked to many of them very recently; 
where they can, people who are at a desk with a computer, they 
are not adding extra risk to them. They're working from home. 
And, yes, they're factory workers whether they're building 
airplanes or cars, they're in the factory with redesigning 
processes and appropriate PPE.
    Mr. Connolly. Thank you very much.
    Mr. Grothman. OK. Thank you very much.
    Mr. Connolly. Thank you, Glenn. Thank you.
    And I will note for the record that the Department of 
Health and Human Services has reported that 22 counties in 
Wisconsin have recently reported spikes in the rate of 
infection. So, even in Wisconsin, unfortunately, we don't have 
this under control.
    The chair also wants to recognize, I believe, the presence 
of our chairwoman, Carolyn Maloney. I don't know if you're 
still with us, Ms. Maloney, but we're more than happy to 
recognize you if you wish to have a statement. Otherwise, the 
chair is happy to recognize for her five minutes, the 
gentlewoman from the Virgin Islands, Congresswoman Plaskett.
    Ms. Plaskett. Good morning, and thank you all for being 
here for this important hearing. Thank you so much, Mr. 
Chairman, for making this available for us.
    It's been reported that the Department of Veterans Affairs' 
hospitals have pushed to reopen facilities without fully 
communicating adequate plans to its workers. NSC has published 
various resources to aid in creating safe work environments 
during the coronavirus pandemic.
    Ms. Martin, are there any specific resources from your 
SAFER task force that you think Federal agencies should use to 
guide their response plans?
    Ms. Martin. Thank you, Congresswoman, for asking. The first 
thing that I would do is make sure you understand your 
operation and the risk profile. So, we have produced an online 
free tool to anyone that is informed by all of the kind of best 
practices from industry that had been referenced here, and it 
enables you to assess your vulnerability based on your work 
environment and then provide you guidelines up to about 300 
recommendations of the precautions and risk mitigators that you 
need to take.
    That helps you assess whether you've taken them or not or 
where your action plan still is. So, for every work 
environment, and they're all a little different, you need to 
make sure you understand your specific risk and got a tailored 
remediation plan for your operation.
    Ms. Plaskett. So, Ms. Martin, again, in March, you sent 
nearly all of your workers for about 25--250 employees who 
reported to a physical building in Chicago home, and you 
continue to allow them to work from home. Can you give us the 
key drivers in the decision to send them home, and what would 
be the key drivers to evaluate and bring them back to the 
physical location?
    Ms. Martin. Yes, thank you. So, I have a safety expert who 
reports directly to me for my organization and she got together 
with me very quickly and formed a task force. And we looked at 
our risk for our employees. And understanding the locations 
they operated in, not only Illinois, but New York and D.C., as 
well, we assessed that they would be safer working remotely, as 
many companies have.
    Then we had to put together the right procedures and 
policies, technology, communications in place to make that 
happen, and we did. As I mentioned before, we didn't think that 
all of our operations could be done remotely. We've proved 
ourselves wrong. They have been done remotely and done well. 
All of our SAFER work that we're referencing here for the best 
practices for employee safety was done with our employees in 
their homes; no one in any of our office spaces. And it's some 
of the most timely and quick response we've had to a safety 
emergency in our Nation in our 100 years of an existence. So--
--
    Ms. Plaskett. What were some of those--can you give me an 
example of something that you thought would not be able to work 
well from home and that you've been surprised at?
    Ms. Martin. We have several call centers that respond to 
folks that get tickets because we do a lot of the training, and 
we thought our call centers needed to be together. They had 
certain technology that enabled them to do their work. They all 
were able to pack up. We got a little bit of extra equipment, 
and they went home, and we haven't missed a beat.
    Ms. Plaskett. I think one of the things that you said 
that's really important is communication. And one of the 
concerns that I have with regard to the administration is the 
Federal guidance for reopening is unclear.
    It's not adequate, and that puts decisions at lower level 
managers to make the decisions about opening and closing. Thank 
you so much, Ms. Martin.
    Mr. Mihm, are agencies clearly communicating their 
coronavirus policy to staff, and then making them aware of 
their options?
    Mr. Mihm. That's one of the things, ma'am, that we're 
looking at on behalf of the Congress. We've just started work 
looking at this communication, but to take the thesis behind 
your point. That communication is absolutely vital, and it's 
not just communication outward, pushing messages out; it's also 
listening to employees.
    It has to be two-way communication to understand their 
concerns so that the policies can be adjusted as appropriate to 
respond to those concerns. And it has to be ongoing. Not just 
as the threat is evolving, but that people's anxiety levels 
will ebb and flow, people's needs will ebb and flow. So, this 
communication and effective communication is right at the 
center of any successful response plan.
    Ms. Plaskett. Mr. Mihm, you talked about hearing from 
employees. What type of actions should agencies be taking to 
ensure they're hearing from and engaging the needs and concerns 
of their employees, whether it's childcare, anxiety, the things 
that you were talking about?
    Mr. Mihm. I think one of the things that agencies need to 
do is to make sure that they have multimode availability of 
communications. That includes, just using the GAO as an 
example, I mean, we have townhall meetings that were first 
every week, now every couple weeks, that are held by the 
Comptroller General and the executive team. There's 
opportunities for staff to ask questions as part of that. 
There's larger team meetings. There's notices that go out over 
the internal email system.
    The point to this, ma'am, is that people don't take 
information by only one source. They process it in different 
ways, and so we need to meet them where they are rather than 
where we think they should be. You need to reinforce messages 
and speak several times because, again, people's needs and 
anxieties change over time.
    Mr. Connolly. Thank you very much.
    Ms. Plaskett. Thank you so much.
    Mr. Connolly. I thank the gentlelady.
    The chair now recognizes the gentleman from Kentucky, Mr. 
Massie, for five minutes.
    Mr. Massie. OK. I was going to go in a different order, but 
I'll go now.
    Mr. Connolly. OK.
    Mr. Massie. I'll go now.
    Mr. Connolly. All right.
    Mr. Massie. Thank you, Mr. Chairman.
    So, some of the concerns that I've heard about the 
government being closed from my constituents is, ironically, 
IRS paper returns are not being processed at the time, and this 
is the irony of it. We're trying to send out stimulus checks, 
yet we can't return the money to the taxpayers who have 
overpaid. And I think that's an avoidable mistake. They closed 
down a paper processing facility in my congressional district.
    They said they had too much capacity and everything's 
online. And so now they're telling constituents all over the 
country: Go online and file your tax return, even if you've 
already filed it by paper. And so I think we need to fix that 
as soon as possible.
    It's also a real problem that the passports--we're having 
constituents who can't get passports. They're told that they're 
no longer going to expedite passports. I think that's a 
problem. But I wanted to ask--I wanted to ask Mr. Mihm about 
the Census work. I saw that the GAO did a little bit of the 
report or the report covered a little bit about how it's 
affected the Census Bureau.
    And can you tell me if you think that the Census is back on 
track or if the steps that they've taken will result in 
completing the Census on time?
    Mr. Mihm. Well, the good news, sir, is that all the field 
offices have reopened and operations are now kicking in. They 
have met the response rate--the response targets that they had, 
which is also very good news, but there's still something in 
order of 60 million households out there that they will have to 
do the nonresponse followup operation with.
    The big challenge for them going forward is, how does this 
first wave continue to ripple across the country or spike, in 
some cases, across the country? Will they need to pull back out 
of the field? And if so, that would severely compromise their 
ability to conduct the census on time, and then also, as you 
know, sir, that the Census Bureau has requested from Congress 
statutory relief to have an additional four months before they 
would need to provide the apportionment counts to the 
President. That would take them into April. And, in fact, their 
operational plan at this point is predicated on getting those 
additional four months.
    Mr. Massie. So, are they currently able to do field 
assessments? Are they able to go door to door at this point, 
and what procedures are they using there?
    Mr. Mihm. An earlier field operation meeting just within 
the last couple months called Update Leave, but that was quite 
successful. They were able to do that. Now they're gearing up 
for--and this will be in the middle of August for the most part 
around the country--to do the nonresponse followup. And that's 
the over 60 million households that didn't respond to the 
Census. So, quick PSA, if people haven't responded yet, please 
respond.
    That's what it happens--and that will be the big challenge 
for them. They're going to be hiring up to 500,000 people to 
take the Census. That obviously requires an awful lot of 
training, tens of millions of PPE that have to be in place, and 
citizens' willingness to open the door when people knock.
    Mr. Massie. When do they ramp up to the 500,000 number?
    Mr. Mihm. What they're doing now is they've already made 
offers to many of those people. They're now getting them in and 
doing the fingerprinting, doing the online training that's 
going to be needed for that. The actual field efforts will 
begin in August on that, when they'll go out knocking on doors.
    Mr. Massie. So, some people have predicted there may be a 
second wave as the weather cools down in the fall after August. 
Do you feel like they're prepared to deal with the implications 
of that, or are they planning for that?
    Mr. Mihm. They're very concerned, very nervous about it, I 
think I should say, sir. The plan is--it's not as if there's a 
hard and fast plan in place because they already are running 
right up until the very end in terms of the data--in terms of 
the data collection and then going through the data and making 
sure that it's adequate for purposes of apportionment in 
redistricting.
    So, obviously, a continued first wave with huge spikes or 
even a big second wave in the late in the fall could, while 
they're still in the field, would cause some very, very major 
concerns.
    Mr. Massie. And just very briefly. Do you have any 
information on what's happening at the passport office or at 
the IRS in terms of two issues that my constituents have 
surfaced?
    Mr. Mihm. Not at the passport office, sir, and obviously I 
can work with your office and get you the information that we 
can find out. In terms of the IRS, as your constituents would 
note, is that for those that file on paper, there has been an 
IRS--they have, in a sense, shut down on that. We are doing a 
review of the filing season this time around and so we'll be 
reporting to the Congress on that.
    I would note that, as the Comptroller General will testify 
tomorrow, is that tens of millions of EIP, the economic impact 
payments, that were processed did go out from IRS. Not without 
some problems that we'll talk about, but in this case or in 
that sense the operations of the IRS did continue.
    Mr. Connolly. I thank----
    Mr. Massie. My time's expired.
    Mr. Connolly. Thank you, Mr. Massie.
    The chair now recognizes the gentleman from South Carolina, 
Mr. Norman, for his five minutes.
    Afterwards, I will recognize the gentleman from Maryland, 
Mr. Raskin, and then I will adjourn the hearing. Votes have 
been called.
    So, I intend to complete the hearing before we all go to 
vote.
    Mr. Norman, you are recognized for five minutes.
    Mr. Norman?
    Mr. Massie. He's unmuting right now.
    Mr. Connolly. OK.
    Mr. Norman. Can you hear me?
    Mr. Connolly. Yes, Mr. Norman, we can hear you. Welcome.
    Mr. Norman. Thank you, Mr. Chairman.
    I want to thank the panelists for testifying today. I will 
tell you I'm in the private sector, and the people that--the 
small businesses that have been out of work, closed down, are 
having to go back. And I think for all the 2.3 million Federal 
workers, they're still getting a paycheck, but if you talk to 
that waitress who hasn't seen a paycheck in a long time, you 
talk to that plumber who has not had a job, it is a health risk 
hazard not to be able to go back to work.
    And I would just add, you know, there is a freedom to take 
a risk, and I think that's what we're finding out now.
    Senator DeMint, you served in both Houses, served in 
Congress. As you know, Ms. Pelosi is the gatekeeper for Speaker 
for coming back to work.
    Voting by proxy, is this what was intended by the Founders, 
the Framers of our Constitution?
    Mr. DeMint. No. Congressman, of course, the question's a 
little off-topic today, but I just have grave concerns about 
it. We need to get together. I mean, the only way to solve 
problems is to get together and talk. We need to do that much 
better than we have in the last several years, but we start 
allowing other people to vote for us, the way that works out 
is--anyway, I just know from being in the House and the Senate, 
the best thing that could happen is for the Representatives to 
be there, to do the people's business, and the House and Senate 
to be together, try to work problems out, talk to each other, 
have lunch together, do more than we've done in the past.
    So, the idea that a lot of this can be done from home, we 
can see in this teleconference today that you just lose a lot 
of the backroom discussions that go on in hearings, 
particularly when you're marking up a bill of some kind, where 
you can work something out in a couple minutes or your staff 
can do it behind you while you're talking.
    We lose all the dynamic of representative government when 
we start talking about proxy voting.
    Mr. Norman. Well, that's evident today because as we've 
talked, it's come in and out. You can't hear. But second, let 
me ask for your opinion, there was a letter sent by the Federal 
Workers Alliance union with 11 demands that had to be met 
before, I assume, they would go back to work. One of which was 
instant PPE, on-demand testing.
    We got 2.3 million people. What's your opinion of that and 
how does that--what's your take on that?
    Mr. DeMint. Well, Congressman, as I read the letter, it 
seems more to be obstructing the idea of getting back to full 
employment at the Federal level, and certainly those are things 
that people at the different agency locations should consider, 
but as I mentioned before, if you have a one-size-fits-all 
mandate, if someone sitting in their office has to wear a mask 
even if they have a health condition that creates 
claustrophobia or whatever, and I've heard a lot of that, we 
need to just allow some flexibility.
    If you've got office full of younger workers, all of those 
demands make very little sense. So, again, they can be 
guidelines, and we can certainly study them, and maybe, in some 
cases, they need to be a mandate, but I just don't think this 
is a time for the Federal employees' unions to be taking a 
stand that's much, much stronger than we're going to see in the 
private sector.
    Mr. Norman. Right. Thank you a lot, Senator. I want to 
thank all the panelists.
    And in the interest of time, I'll yield back.
    Mr. Connolly. I thank the gentleman.
    And the final member to be recognized is the gentleman from 
Maryland, my friend Mr. Raskin. five minutes.
    Staff. He needs to unmute.
    Mr. Connolly. Mr. Raskin, if you can unmute yourself and 
make sure your video is on.
    Mr. Raskin? Ok we can see you Mr. Raskin
    Mr. Raskin. OK. Alright.
    Mr. Connolly. Yep, we can hear you too.
    Mr. Raskin. Thank you very much, and thanks for calling the 
hearing. And, of course, proxy voting, I'll just say a word 
about that. I mean, that's an emergency measure that we 
instituted in order to guarantee the continuity of government 
because we couldn't have everything shut down by this epidemic 
that's out of control, where we have no national testing plan, 
no national contact tracing plan, and we've lost more than 
125,000 of our people already with 2.3 million people sickened.
    So, we've got to do everything in our power to keep 
government going. We've got that responsibility. And, of 
course, the plan that we adopted replaced one where two people 
could essentially declare themselves Congress. That was adopted 
under a Republican Congress, and two people could declare 
themselves Congress in total disregard of the quorum 
requirement, and our rule scrupulously enforces the quorum 
requirement by making sure that every Member gets to continue 
to vote and be a voice for his or her constituents.
    But it's OSHA's job to ensure safe working conditions for 
the American people, yet OSHA has been completely AWOL during 
this pandemic when workers' lives are literally on the line in 
every workplace in America, from slaughterhouses to schools.
    All the way across the country, the agency has refused to 
issue emergency standards to protect workers, instead relying 
on voluntary guidelines. And despite receiving thousands of 
worker complaints, OSHA's done almost nothing to followup.
    Indeed, as of mid-May, this time last month, OSHA had not 
issued any citations related to COVID-19 in any workplace in 
America, which is unbelievable. It's understandable the agency 
might want to limit exposure of its own inspectors, but this is 
no time for them to just blow the whistle and desert the field 
and abandon workers to the mercy of unsafe workplaces.
    We've called on OSHA to do more. In April, I joined more 
than 40 colleagues urging emergency standards while the House 
in May passed the HEROES Act, which would obligate safety 
standards for various workers on the front lines endangered by 
the pandemic.
    Ms. Simon, I know AFGE is also dismayed by OSHA's failure 
to use its authority here to protect America's workers. How 
would emergency standards help Federal workers, and how do you 
account for OSHA's miserable and repeated failure to step up?
    Ms. Simon. Thank you for the question. Am I muted?
    Mr. Raskin. We got you.
    We can't hear you now.
    Ms. Simon. How about now?
    Mr. Raskin. Now you're fine.
    Ms. Simon. OK. Thank you.
    Thank you very much for the question.
    AFGE proudly represents OSHA inspectors, and they are as 
frustrated as the millions of American workers who are calling 
out for an emergency standard on COVID. Unfortunately, they are 
powerless to initiate or publish any kind of standard.
    One example that we talked about--a story about it is in 
The Washington Post today--is in meat processing plants. We 
represent the meat and poultry inspectors, Department of 
Agriculture employees, one of whom has actually died from COVID 
during the pandemic, but many, many have become infected. And 
it's virtually impossible for them to do their jobs safely when 
you have almost unlimited line speeds in the meat processing 
plants. So, that's one clear example of the emergency standard 
that's so desperately needed in those plants that would really 
allow workers to social distance and perform their duties while 
protected with PPE.
    Mr. Raskin. Staying healthy. Thank you, Ms. Simon.
    Ms. Martin, I want to come to you. You've also called for 
emergency OSHA standards. Why do you think it's so urgently 
needed?
    Ms. Martin. Yes. OSHA and OSHA standards have saved lives. 
It's that simple. Since the time that they were created in 
1970, they've been a guide of what safety looks like in our 
workplaces. Right now, the patchwork of states and local 
authorities saying what safety is isn't helpful. We need one 
Federal guideline, and OSHA is the right body to provide that 
for us.
    Mr. Raskin. Thank you very much.
    Mr. Chairman, I yield back so we can all go vote.
    Mr. Connolly. Thank you very much, Mr. Raskin. And thank 
you for your advocacy for our Federal employees.
    In closing, I want to thank all of our panelists for your 
contributions. I want to commend my colleagues for 
participating in an important conversation. As we look at 
further reentering the Federal workplace, both for our Federal 
employees and for Federal contracting employees, I do want to 
end on a personal note that I want to remember my constituent 
Chai. He worked in a daycare center at Quantico. He loved 
children. He loved being an American. He was a Thai American 
citizen who went through that transition and loved his country. 
He lost his life as a Federal employee because he contracted 
COVID-19 not too far from here at the Quantico Marine Base.
    If we needed a reminder about the risks involved in the 
wrong decisions, in the lack of policy, in the lack of clear 
guidance, in the lack of defaulting on the side of safety to 
protect everybody, the other Chais in this world, so there 
aren't more victims, I've entered into the record the very 
powerful statement by his widow that I hope all of my 
colleagues will take heed of and read.
    Mr. Connolly. It's a reminder that there's a human face and 
there are real consequences to the loss of any life in this 
pandemic, and all of us in Congress have a special 
responsibility to protect the whole American public, including 
our Federal employees and Federal contract employees, as we 
proceed to make momentous decision about the reopening of 
business, the ending of quarantines, the need for more testing, 
the need to make sure that we have clear safety guidelines to 
protect every life because every life is worth protecting.
    I thank all of my colleagues. I remind anybody if they have 
additional questions or statements for the record, they should 
go through the email provided in the committee memo or the 
clerk of the Oversight and Reform Committee. I thank everybody. 
Stay well. Stay healthy. God bless. Thank you.
    The hearing is adjourned.
    [Whereupon, at 11:47 a.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
